No. 19-1269

In The
TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED, ET AL.,
PETITIONERS,

V.
TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.,

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
CERTIFICATE OF SERVICE
I, Ruthanne M. Deutsch, Counsel of Record for Amicus Curiae the Fair
Standards Alliance, do hereby certify that on this 5th day of June, 2020, I caused
copies of the Brief of the Fair Standards Alliance as Amicus Curiae in support of
Petitioners to be served by electronic mail, with the parties’ consent to electronic
service, as encouraged by the Court’s order of April 15, 2020. I also certify that all
parties required to be served, as listed below, were served:
Seth P. Waxman, Wilmer Cutler Pickering Hale and Dorr LLP
Counsel of Record for Petitioners
seth.waxman@wilmerhale.com
Jeffrey Alan Lamken, MoloLamken LLP
Counsel of Record for Respondents
jlamken@mololamken.com

Ruthanne M. Deutsch
rdeutsch@deutschhunt.com
Deutsch Hunt PLLC
300 New Jersey Ave., NW
Suite 900
Washington, DC 20001
(202) 868-6915

